WILMERHALE
August 26, 2019

David W. Bowker
+1 202 663 6558 (t}
+1 202 663 6363 (f)
david.bowker@wilmerhale.com

Via First-Class Mail And Electronic Filing

Honorable Scott S. Harris
Clerk of the Court
United States Supreme Court
One First Street N.E.
Washington, D.C. 20543
Re: United States Agency for International Development, et al. v. Alliance for Open
Society International, Inc., et al., No. 19-177
Dear Mr. Harris:
I am counsel of record for respondents: Alliance for Open Society International, Inc.;
Pathfinder International, Inc.; Global Health Council; and InterAction. Pursuant to Rule 30.4,
respondents respectfully request a 60-day extension of time-to and including November 8,
2019-in which to file a response to the petition.
The petition for a writ of certiorari in the above-captioned case was filed on August 7,
2019 and docketed on August 8, 2019. The response is currently due on September 9, 2019. A
60-day extension is necessary due to the press of other business facing counsel, including a reply
brief due on September 9 in FTC v. AbbVie Inc. et al, Nos. 18-2621, 18-2748, 18-2758 (3d Cir.);
an opening brief due on September 30 in In re Grand Jury Subpoena, No. 19-1891 (2d Cir.); an
opening brief due on October 4 in Taylor Energy Co. LLC v. United States, 19-1983 (Fed. Cir.);
and assisting co-counsel's oral argument in the Supreme Court on October 16 in Mathena v.
Malva, No. 18-217. Additional time is also needed to coordinate the large group of clients
involved in this case.
Thank you for your consideration.
Sincerely,

��W:k_,
David W. Bowker

cc:

All counsel of record

Wilmer Cutler Pickering Hale and Dorr LLP, 1875 Pennsylvania Avenue NW, Washington, DC 20006
Beijing

Berlin

Boston

Brussels

Denver

Frankfurt

London

Los Angeles

New York

Palo Alto

San Francisco

Washington

